                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                              PRE-AUDIT SURVEY OF THE
                    ILLINOIS COMMISSION ON COMMUNITY SERVICE

                                  OIG Audit Report Number 00-32
                                        January 28,2000




                                             Prepared by:

                                           KPMG LLP
                                        2001 M Street N.W.
                                       Washington, DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # 5-9-G-8-0022
                                       Task # B9G8V104




This report was issued to Corporation management on June 29, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than December 26, 2000, and complete its corrective actions by June 29,
2001. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                  Office of Inspector General                               CORPORATION
                        Corporation for National and Community Service
                                                                                            FOR NATIONAL

                                      Pre-Audit Survey of the
                            Illinois Commission on Community Service
                                  OIG Audit Report Number 00-32



Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although the
Corporation began state commission administrative reviews in 1999, the Corporation, historically, has
not carried out a comprehensive, risk-based program for grantee financial and programmatic oversight
and monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part
of state-wide audits under the Single Audit Act due to their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration,
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting), and
the use of training and technical assistance funds. For each survey, we will issue a report to the state
commission and to the Corporation communicating the results and making recommendations for
improvement, as appropriate.

 We engaged KPMG LLP to perform the pre-audit survey of the Illinois Commission on Community
 Service. Based on the limitedproceduresperformed, KPMG concluded that the Commission administers
 an open, competitive process to select national service subgrantees, but noted areas for improvement
 and that the Commission has developed controlpolicies andprocedures to administer Corporation grant
funds, monitor subgrantees, and to provide them with training and technical assistance. However, their
 report includes recommendations for improvement in the Commissions's grant award, fiscal
 administration and monitoring processes. KPMG also recommends a limited scope audit of the
 Commission for program years 1995-96 through 1998-99 with an emphasis on subgrantee monitoring
 and that the Corporation follow up to determine that appropriate corrective actions have been put into
place to address the conditions reported.



                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington, DC 20525
CNS OIG reviewed the report and work papers supporting its conclusions. We agree with the findings
and recommendations presented therein.

A response to the report by the Illinois Commission is included as Appendix C. In its response, the
Commission questions the need for a limited scope audit and disputes the survey findings.

The Corporation's response (Appendix D) indicates that the Corporation plans to request semi-annual
reports from the Commission on its actions to correct the conditions reported and to follow-up on the
corrective actions when the Commission is reviewed during the Corporation's administrative review
process.
                                              Pre-Audit Survey of the
                                   Illinois Commission on Community Service
                                                 Table of Contents



RESULTS IN BRIEF ......................................................................................................................   1

BACKGROUND..............................................................................................................................7-

OVERVIEW OF THE ILLINOIS COMMISSION.......................................................................... 3

OBJECTIVES. SCOPE. AND METHODOLOGY ...................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................. 5

APPENDIX A. COMMISSION FUNDING: 1996-97 THROUGH 1998-99..............................A.1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
                                                                                                                             B. 1
   METHODOLOGY ................................................................................................................

APPENDIX C. ILLINOIS COMMISSION ON COMMUNITY SERVICE RESPONSE .......... C.1

APPENDIX D. CORPORATION RESPONSE .......................................................................... D.1
            2001 M Street, N.W.
            Washington, DC 20036




January 28,2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a pre-audit survey of the Illinois Commission on Community
Service (Commission). The primary purpose of this survey was to provide a preliminary
assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission has developed control policies and procedures to select subgrantees
    through a fair and impartial process. However, we identified an area for improvement
    related to a lack of an open and accessible application process.

    The Commission has developed policies and procedures to administer the Corporation's
    grant funds. However, we identified an area for improvement related to Commission staff
    review of subgrantee expense reimbursement requests for matching requirements.

    The Commission has established controls to evaluate and monitor subgrantees. However, the
    Commission did not review Office of Management and Budget (OMB) Circular A-133
    reports or other audit reports for two subgrantees in the 1997-98 program year. The
    Commission also does not keep a schedule of site visits nor ensure that visits are made in
    accordance with policy. In addition, documentation of the site visit review is not adequately
    maintained as an audit trail.
    The Commission has adequate controls in place to provide reasonable assurance that training
    and technical assistance is made available and provided to subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

Based on our preliminary assessments, we recommend the performance of a limited scope audit
at the Commission for program years 1995-96 through 1998-99, with a focus on subgrantee
monitoring.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the Illinois
Commission on Community Service.


Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
Overview of the Illinois Commission

The Illinois Commission on Community Service, located in Springfield, Illinois has received
AmeriCorps grant funds from the Corporation for National and Community Service since
program year 1994-95. From July 1994 to June 30, 1995, the Commission operated as part of
the Lieutenant Governor's Office of the State of Illinois. From July 1, 1995 through January 29,
1998, the Commission operated as part of the State of Illinois, Department of Commerce and
Community Affairs (IDCCA). Since January 29, 1998, the Commission has been operated by
the State of Illinois, Department of Human Services (IDHS). The Commission currently has
three full-time staff consisting of a Program Officer, Volunteer Program Manager, and
Administrator. Additionally, the Chief of the IDHS - Office of Prevention - Bureau of
Community and Youth Programs, spends a third of her time supervising the AmeriCorps
program and another IDHS employee spends a fourth of her time administering the Learn and
Serve Program.

As part of an agency of the State of Illinois, the Commission is subject to a bi-annual Office of
Management and Budget (OMB) Circular A-133 audit performed by the State Auditors' Office.
However, the Commission's AmeriCorps grant has never been tested as a major program under
OMB Circular A-133.

The Commission provided us with the following information for the last three program years:

                                                                       Number of Sub-
                                                                      grantees Subject to
                              Total Corporation        Number of         A-133 Audit
        Program Year              Funding              Subgrantees      Requirements*




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for the program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation during
program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees. including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's A Reference
   Manual for Commission Executive Directors and Members, and other information to gain an
   understanding of legal, statutory and programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
    99; and

    performing the procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
    and the technical assistance process.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on January 27,2000.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as Appendix
C and Appendix D, respectively. In order to address certain of the concerns expressed in these
responses, we have clarified the wording of the respective findings and recommendations.
Findings and Recommendations

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members. section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding." The Commission administers a fair and impartial
process to select national service subgrantees. Selection officials receive a conflict of interest
information sheet and an instruction package and use a standard form to evaluate each applicant.

However, we identified the following areas for improvement within the selection process.

        Missing Documentation Related to Application Rejections

The files for rejected applicants for the prior program year (1997-98) were either misplaced or
lost. The Commission was able to provide a summary memo that described the rationale for the
applicants that were rejected; however, without reviewing the rejected applicants' files, we could
not ascertain if the rationale for rejection was supported and whether the applicants were
appropriately notified.

        Lack of Open and Accessible Application Process

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "The Commission is expected to widely publicize the availability of funds." During
program years 1995-96 through 1997-98, the Commission only distributed AmeriCorps
application information to not-for-profit agencies that were included on the Commission's
mailing list, which for the 1997-98 program year included over 5,000 not-for-profit agencies.
Therefore, no form of public advertising (e.g., newspaper, radio, or internet) was utilized for
those program years. The Commission added information regarding the application process to
the IDHS internet website starting in program year 1998-99. Additionally, because of a lack of
staffing, the Commission only invited existing AmeriCorps competitive and formula program
subgrantees to apply for participation in the AmeriCorps Educational Only Awards Program
during the 1998-99 selection process.

        Recommendation

We recommend the Commission focus on measures for improving the effectiveness of its
subgrantee selection process as follows:

=   Ensure that all programs are widely publicized each year on the IDHS internet website and in
    informational mailings, and newspapers.
    Maintain all pertinent files and documents, including rejected applicant information in
    accordance with the grant provisions and the record retention standards of the Corporation
    as published in the AmeriCorps Provisions.
    Administering Grant Funds

    As part of the grant administration process, "Commissions must evaluate whether subgrantees
    comply with legal, reporting, financial management and grant requirements and ensure follow
    through on issues of non-compliance" (A Reference Manual for Commission Executive Directors
    and Members, section 4.3).

    The Commission's personnel have adequate slulls and experience to manage and administer
    Corporation grant funds. Overall, the Commission's staff has developed control policies and
    procedures to administer the Corporation's grant funds. However, we identified the following
    areas for improvement related to the evaluation of subgrantee compliance with reporting and
    grant requirements.

            Timeliness of Receipt of Financial Status Reports (FSR) and Program Progress Reports
            f PPR)
    The Commission has a procedure in place to date-stamp the back of the FSRs as they are
    received from subgrantees. However, only copies of the front of the FSRs selected for testwork
    were available for review; therefore, verification of the date-stamp and timeliness of the receipt
    of the FSRs could not be ascertained. The Commission does not have a procedure in place to
    date-stamp PPRs as they are received from subgrantees. Therefore, verification of the timeliness
    of receipt of PPRs could not be performed. If subgrantee FSRs and PPRs are submitted late, the
.   Commission will experience difficulties when attempting to prepare and submit its FSR and PPR
    to the Corporation on a timely basis.

    In program year 1999-2000, the Commission began utilizing the Web Based Reporting System
    which electronically records the date subgrantees submit their FSRs and PPRs to the
    Commission. As a result, no recommendation is required at this time related to timeliness of
    receipt of FSRs and PPRs.

            Lack of Review of Subgrantees' Expense Reimbursement Reports by Commission Staff in
            Program Year 1998-99

    Commission procedures require that subgrantees submit an expense reimbursement report to the
    Commission, either monthly or quarterly depending on the size of the subgrantee. The expense
    reimbursement report discloses both program and matching expenses. In program years 1995-96
    through 1997-98, the expense reimbursement reports were first reviewed and initialed by
    Commission staff members for propriety of both program and matching expenses, and then
    forwarded to the accounting department for payment.

    When the Commission transferred to the IDHS in January 1998, staff decided to utilize some of
    IDHS services to help process payments to subgrantees. Therefore, during the 1998-99 program
    year, subgrantees submitted their expense reimbursement reports directly to the IDHS accounting
    department, where an accountant was to review all AmeriCorps expense reimbursement reports.
    However, the IDHS accountant only reviewed the propriety of program, not matching, expenses
    in accordance with the grant requirements. Additionally, the IDHS accountant did not indicate
    his review of the expense reimbursement reports by initialing the reports. Thus, there is no
    evidence that the required review occurred. Subsequent to the IDHS accountant's review of the
expense reimbursement reports, payment to the subgrantee was processed without review by the
Commission staff members.

Beginning in program year 1999-2000, the Commission intends to have Commission staff
members review the expense reimbursement reports in addition to the FSRs and PPRs that are
received by subgrantees via the Web Based Reporting System. The Commission staff members
review of reports will be signified electronically and then the reports will be sent to the
appropriate person(s) for the next level of review or processing.

        Recommendations

We recommend the Commission implement its plan to have Commission staff members review
the expense reimbursement reports of subgrantees to ensure the propriety of program and
matching expenses prior to the reports being forwarded to the accounting department for further
review and processing. The Commission should also ensure that the procedures to review and
reconcile FSRs and PPRs that are received by subgrantees via the Web Based Reporting System
are documented in writing.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. The Commission has established controls to evaluate and monitor
subgrantees, which include reviewing program and financial reports and scheduling site visits for
each subgrantee during the 12 month grant period. Commission personnel are required to notify
the subgrantees of the results of these site visits, including strengths, weaknesses, concerns,
recommendations, and any necessary follow-up requirements.

We were not able to perform the required testwork for one of six subgrantees selected for the
1995-96 program year, as the file for that program year was not available. All other program
year files for the subgrantee were available.

Additionally, we identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

        Maintenance of Member Surveys and Follow-up Letters and Documentation of Records
        Obtained and Reviewed During Site Visits

The Commission conducts informal Member surveys and uses the program review instrument
included in A Reference Manual for Commission Executive Directors and Members in
conducting its subgrantee site visits. It is also required to issue a follow-up letter to
communicate the results of the site visits. Information gathered from the informal Member
surveys is not documented and maintained on file. This could prove problematic if Members
claim that they informed the Commission of an issue in a survey and no documentation exists for
Commission review. In several instances through our review of subgrantees' files, we could not
ascertain what feedback was given to the subgrantee at the conclusion of the site visit because
follow-up letters were not included in the files. In addition, although the program review
instrument is maintained, it does not identify what documents the reviewer tested. Therefore,
subsequent reviewers would be unable to examine the same documentation if a question arose
about the results of the test.
        Review of O M B Circular A-133 Reports o r Other Audit Reports jrom Subgrclntees

OMB Circular A-133 Compliance Supplement, April 1999, Part 6 - Internal Control suggests
that review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor subgrantees' compliance with federal grant requirements. Two instances in program
years prior to 1998-99 were identified where OMB Circular A-133 reports were not obtained
from the subgrantee. By not obtaining OMB Circular A-133 or other audit reports of
subgrantees. control weaknesses or instances of material noncompliance related to the
AmeriCorps program of which the Commission is not aware may exist and may not be corrected.

The Commission currently has controls in place to ensure the receipt of OMB Circular A-133
reports or other audit reports from subgrantees, as IDHS has a department that oversees the
collection, review, and maintenance of all their subgrantees' OMB Circular A-133 reports. If a
subgrantee is not required to have an audit in accordance with OMB Circular A-133, they sign a
statement, which is submitted with their close out documents stating such. As a result, no
recommendation is required at this time related to receipt of OMB Circular A-133 reports.

        Schedule of Planned and Actual Site Visit Dates

The Commission's current policy requires two site visits during the 12 month grant period for
each subgrantee. The Program Officer communicates with the Chief of the IDHS - Office of
Prevention - Bureau of Community and Youth Programs, who supervises the Commission, as to
when site visits are planned, however, no comprehensive schedule of planned and actual site visit
dates for the grant period exists. As a result of an increase in the number of subgrantees and lack
of staffing, we noted two instances in program years 1997-98 and 1998-99 in which the
Commission did not perform the required number of site visits in accordance with its policy.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Develop and implement procedures to formally document and maintain information obtained
    from Members during informal Member surveys conducted at site visits and follow-up letters
    issued at the conclusion of site visits. Additionally, procedures should be developed and
    implemented to ensure that specific records reviewed during site visits are documented in the
    site visit file for each subgrantee as an audit trail.

    Maintain a clear, concise schedule of site visits to be performed during the grant period and a
    record of when site visits are performed. The Chief of the IDHS - Office of Prevention -
    Bureau of Community and Youth Programs, should monitor the Commission's progress
    towards completing the scheduled site visits. The Commission should reconsider the
    allocation of its resources in light of its staffing situation, the number of subgrantees, and an
    assessment of risk for each subgrantee, to improve the effectiveness of its subgrantee
    evaluation and monitoring procedures. The Commission should consider revising its site
    visit policy to reduce the number of visits to low risk subgrantees, or contract out selected
    site visits to other auditors.
Providing Technical Assistance

The Commission has adequate controls in place to provide reasonable assurance that training and
technical assistance is made available and provided to subgrantees.

Procedures are in place at the Commission to (1) identify training and technical assistance needs
of subgrantees through discussions with program directors during quarterly training sessions, site
visits, quarterly progress reports and a needs assessment survey; (2) notify subgrantees of
training programs; and (3) provide needed training to subgrantees. We identified no significant
areas for improvement within this process.




This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Illinois Community Service Commission, and the United States Congress and is not intended to
be and should not be used by anyone other than these specified parties.
                                 Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past three program years. We were unable to agree the funding amounts to the Commission's
FSRs for (a) 1998-99 because the final FSR for the program year had not been completed at the
time of field work and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year. basis.


         Funding Source and Tvve

         CNS Formula Grant Funds

         CNS Competitive Grant Funds

         CNS Learn and Serve Funds

         CNS Promise Fellows Funds

         CNS Educational Only Awards

         CNS PDAT Funds

         CNS Administrative Funds

         State Matching Funds

           Total Funding


*   The State Matching Funds reported for the 1996-97 program year represent matching funds
    from January 30, 1994 through September 30, 1997 as the Commission was not able to break
    out matching funds by program year. The 1997-98 and 1998-99 program year State Matching
    Funds reported are based on the federal fiscal year (October 1 through September 30).
                           Commission Funding                                       Appendix A




                   Corporation for National Service
                           Funding to the
             Illinois Commission on Community Service
                                   1996- 1997
I                                                                              I

         I                 I              I         I
                                                    -                  I
     Formula         Competitive     Learn and       PDAT          All Other
      Funds            Funds           Serve         Funds          Funds
                                       Funds
    $2,338,310         $406,585       $70,988       $99,006        $28 1,632




I      Total Corporation Funds Available to the Commission                     I



                      Funds Awarded to Subgrantees
                              $2,815,883




       i    Formula
          Subgrantees
           $2,338,310
        # of subgrantees
                                  Competitive




               Note: The number of sites was not available for this program year.




                                              A.2
                       Commission Funding                                     Appendix A




     Total Corporation Funds Available to the Commission
                         $4,180,643


                                      T




                   Funds Awarded to Subgrantees
                           $4,007,125
        I                             I



   Formula                      Competitive                   Learn and
  Subgrantees                   Subgrantees                      Serve
  $3,017,333                                                 Subgrantees
# of subgrantees              # of subgrantees                 $104,194
       19                                                  # of subgrantees
                                                                  15
                                                          -


        Note: The number of sites were not available for this program year.



                                      A.3
                             Commission Funding                                         Appendix A




                        Corporation for National Service
                                Funding to the
                  Illinois Commission on Community Service
                                     1998-1999
   I
              I              I               I                I             I
           Formula     Competitive       Learn and         PDAT         All Other
            Funds        Funds             Serve           Funds         Funds
                                           Funds
       $3,117,716        $994,106         $73,299          $64,155      $379,854




              v             v               v                 v            *
            Total Corporation Funds Available to the Commission
                                $4,629,130




                        Funds Awarded to Subgrantees
                                $4,292,128
       I


                            v                          v                   v
    Formula             Competitive
  Subgrantees           Subgrantees          Learn and Serve           Other Funds
   $3,1 l7,7 16                                Subgrantees             Subgrantees
# of subgrantees      # of subgrantees           $73,299                 $107,007
        16                                   # of subgrantees        # of subgrantees
    # of sites                                       7                      12




       Note: The number of sites was not available for Learn and Serve and Other Subgrantees.


                                                 A.4
                           Detailed Engagement Objectives
                                  and Methodology                                   Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: ( I ) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; procurement, suspension and debarment; subrecipient
monitoring; and reporting by the Commission to the Corporation. We then interviewed key
Commission personnel to assess the Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

    make a preliminary assessment as to whether the Commission provided adequate guidance to
    subgrantees related to maintenance of financial systems, records, supporting documentation,
    and reporting of subgrantee activity;

    make a preliminary assessment of the adequacy of financial systems and documentation
    maintained by the Commission to support oversight of subgrantees and required reporting to
    the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

    determine whether the Commission has procedures in place to verify the accuracy and
    timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission had implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B


In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
                    Illinois Community Service Commission Response                   ,ippendi?iC




                   smor
George R y a n , 60)           -   -   d   a                                Renee Baker, Sscretiq

                                            2 125 S. First Street
                                           Champaign, IL 61820

June 16,2000


Ms. Luise S. Jordan, Inspector General
Corporation for National Service
120 1 New York Avenue, NW
Washington, DC 20525

Dear Ms. Jordan:

Enclosed is the Illinois Commission on Community Services' response to the pre-audit survey
report issued by your office on May 18,2000. The Commission will comply with the
recommendations in the report and will report its progress in doing so to the Corporation for
National Service as required. Please contact me with any questions or to discuss any of the
information in the response at (217) 278-5900.




Asta \i. Ardickas, Acting Executive Director
Illinois Commission on Community Service


cc:      Helen Shumate, Chair, Illinois Commission on Community Service
         Fred Rodriguez. Vice Chair, Illinois Commission on Community Service
         Mark Fazzini, Executive Board Member, Illinois Commission on Community Service
         Frank Sorenson, Executive Board Member, Illinois Commission on Community Service
         James R. Nelson, Director, Division of Community Health and Prevention
         Jim Donlun, Chief Internal Auditor, Office of Internal Audits
         Connie Brooks, Associate Director, Office of Prevention
         Dick Robinson, Financial Manager, Office of Prevention
         Bill Jacobs, Chief, Bureau of Central and Field Operations
         Doris Garrett, Chief, Bureau of Community and Youth Programs
                                                                                      Appendix C
                Illinois Community Service Commission Response
                          Illinois Commission on Community Service
                             Pre-Audit Survey Response, June 2000

The Illinois Commission on Community Service found the overall pre-audit survey process
helpful in identifying both strengths and areas for improvement in its management systems. The
Commission was pleased when the KPMG auditors stated at the exit conference that the issues
identified during the pre-audit survey would have been listed as management recommendations
in a full A-133 audit. The Commission was therefore somewhat surprised when it received the
draft report of the pre-audit survey containing a recommendation for a limited scope audit
focused on program monitoring. In our opinion, the areas for improvement identified as a result
of the pre-audit survey are not of a level that would justify the need for a limited scope audit.
The Commission's responses to each of the recommendations are contained below.

As noted in the report, the Commission has changed fiscal agents several times since it was first
created. It is important to note that the Commission's location in the Illinois Department of
Human Services (IDHS) provides it with the administrative supports necessary to administer
funds and programs in compliance with federal standards. Commission staff work closely with
other IDHS staff to ensure the programs are well run. Supports received from IDHS include
accounting and other fiscal procedures, subgrantee audit review, proposal development, and
communications. Commission staffs accountability to both its Governor-appointed board and
IDHS ensures the highest level of oversight and professionalism in program administration.

Selecting Subgrantees
The first recommendation was based on the auditors opinion that the Commission did not have
an open and accessible application process for its subgrantees. The report recommended that the
Commission "Ensure that all programs are widely publicized each year on the IDHS internet
website and in informational mailings, and newspapers." The report states that this
recommendation is based on guidance provided in A Reference Manual for Commission
Executive Directors and Members, developed by Project TASC in fail of 1997. The
Commission's last open competitive process for AmeriCorps*State grants was held before the
manual was issued. In addition, the manual is not a legal document of the Corporation, but a
technical assistance manual intended to serve as a guide for Commission activities. Federal
Provisions require only that each State must "Administer a competitive process to select national
service programs to be included in any application to the Corporation for funding" (45 CFR sec.
2250.80 (b)(l)). The fact that legal documents do not specifically state than an open and
accessible process is required means that this recommendation, while worthwhile, is not strong
enough to require a limited scope audit. In addition, there are no standards provided in the
manual as to what "widely publicizing the availability of funds" means; the Commission feels
that advertising to all interested parties who had contacted the Commission and were on its
mailing list met this requirement. The reasoning and intent behind the recommendation are clear
and we agree in spirit. However, it is unreasonable to use an ill-defined standard in an unofficial
policy manual as a basis for requiring a limited scope audit.

The Commission will post all competitive applications on the IDHS internet website as requested
and will include information on competitive applications in informational mailings as
                                                                                       Appendix C
                Illinois Community Service Commission Response
appropriate. Organizations and individuals who contact the Commission for information on
funding opportunities will continue to automatically receive information on the applications.
The Commission feels that this will address the underlying area for improvement, that of
ensuring an open and accessible process, sufficiently that advertising in newspapers is not
necessary. All competitive applications for funding issued through IDHS are required to be
posted on the website. It is the agency's policy that applications do not have to be advertised in
newspapers because it is no longer an efficient way to deliver information to interested
organizations. In the information age in which we now live, the internet has replaced the
newspaper as the preferred method for advertising funding availability because potential
applicants are able to immediately download application information. 411 community-based
organizations have access to the internet through their local library.

The other recommendation made in this area was that Commission staff should maintain all
pertinent files and documents in accordance w ~ : hrecord retention standards as published in the
AmeriCorps provisions. This recommendation vas largely a result of the fact that the
Commission did not have rejected application tiles for AmeriCorps*State programs on record
three years after the applications were submitted. The Commission did have a record of which
proposals were rejected and the reason for the rejection. The Commission would like to state
that its usual business practice is to keep copies of all rejected files and other documentation.
The files in question were unintentionally misplaced during the Commission's move from the
Department of Commerce and Community Affairs to IDHS in February 1998. All rejected
applications and review sheets are on file from the 2000-2001 ArneriCorps grant review as
required.

Administering Grant Funds
The Commission and IDHS are pleased that only one recommendation was made in this area.
The recommendation to have Commission staff review matching expenses of programs prior to
expense reports and Financial Status Reports being submitted to IDHS accounting for further
processing was based on the fact that in the 1998-1999 program year all financial reports were
submitted directly to accounting. However, the Commission still had procedures in place to
ensure control over subgrantee financial systems and matching funds reported. Information on
how to review FSR's for match was forwarded to IDHS staff who were responsible for reviewing
financial documents on behalf of the Commission. Commission staff reviewed match and match
documentation at close-out site visits to ensure that all programs were in compliance.
Subgrantee fiscal staff were informed of AmeriCorps rules and that Commission staff would
review fiscal records at the close of the program year. All fiscal policies and procedures were
reviewed at each subgrantee at least once in the 1997-1998 program year to ensure sound fiscal
systems were in place at each site. This resulted in most programs accurately tracking match and
meeting their proposed match at the end of the fiscal year. The fact that the reports were not
signed off on for 1998- 1999 does not warrant a limited scope audit of the Commission.

The Commission is developing a process whereby staff review all fiscal reports before
forwarding the reports to the accounting office. l h s process will allow Commission staff to
monitor subgrantee expenditures (grant funds and matching) in keeping with the
recommendation contained in the report. The Commission would like to note that Office of
                                                                                     Appendix C
                Illinois Community Service Commission Response
Contract Administration in IDHS is responsible for collecting and reviening subgrantee ,luii~ts.
Any findings are followed up by IDHS staff. The Commission and IDHS were pleased that no
recommendation was made in this area, and believes this demonstrates the quality of the support
systems provided by IDHS.

Evaluating and Monitoring Subgrantees
One large issue for clarification in this section of the report relates to that of the "member
survey." The Illinois Commission does not have members complete written surveys at site visits.
Rather, Program Officers and, when possible, Commissioners meet with groups of members to
discuss the program. Topics discussed include member activities (to determine that no
prohibited activities are occurring), program strengths, program leadership, member
development, areas for improvement and program challenges. Because surveys are conducted
orally, they cannot be filed for future reference. The information collected during these meetings
is combined with information learned from meeting with program staff and site supervisors to
complete the final section of the Program Review Instrument. The recommendation that the
Commission keep member surveys on file is not based on an accurate understanding of the
Commission's site visit policies and should be removed.

Another recommendation was that Commission staff should ensure that specific records
reviewed during site visits are documented in the file as an audit trail. The Commission feels
that, in terms of the member files and policies and procedure compliance sections of its
monitoring form, it has met this requirement. A checklist must be completed on each member
file reviewed, thus documenting what papers were reviewed in each file. Site visit instructions
require that Program Officers indicate in writing what materials were reviewed and/or what
information was used to make a decision on a particular issue in the policies and procedures
section of the review form. As a control, senior staff will begin to review the documentation
collected by Program Officers on site visits. However, we feel that basic procedures addressing
this issue are already in place. The Commission also feels that to require any further
documentation on the part of Program Officers (i.e., collecting copies of materials reviewed at
each visit) would be inefficient and place an excessive burden on both Commission and program
staff.

A recommendation was also made stating that the Commission needs a better system of site visit
documentation. The letter states that two site visits were not preformed as required in the 1998-
1999 program year. All programs received at least two visits for that program year. The final
two visits were scheduled to take place in December 1999 but were canceled due to illness. The
visits were then postponed until after the pre-audit survey which occurred in January. These
visits were held and completed in March 2000. In addition, all site visits were completed in the
1997-1998 program year. The policy for 1997-1998 required only that all sites be visited twice;
a third visit was optional. The program in question, Waukegan Public Library, was in fact
visited twice on January 29 and March 27, 1998. Considering that the Commission changed
Executive Directors three times and moved from the Illinois Department of Commerce and
Community Affairs to IDHS during that period, the fact that all programs received at least two
visits and all but one received three visits is a large accomplishment. We feel that the fact that
the Commission met its own formal policies does not justify the need for a limited scope audit of
                                                                                     Appendix C
                Illinois Community Service Commission Response
program monitoring.

The report also stated that the Commission does not have a formal procedure in place to ensure
that all site visits are made. Beginning in 1998-1999, Program Officers are required to carbon
copy all site visit letters to the Executive Director of the Commission to ensure that the visits
have occurred and that quality feedback is being provided to subgrantees. The Commission does
acknowledge that it does not have a more formal procedure than this for ensuring that site visits
are completed and will develop one in line with the recommendations contained in the report.
IDHS staff who work with the Commission have been trained in data management and will
provide assistance in this area. However, the Commission feels that its excellent track record in
completing site visits combined with the above should reduce the significance of this issue to a
management recommendation and not one that justifies the need for a limited scope audit of the
Commission.
                                                    Corporation Response
                                                                                               Appendix D




         TO:                    Luise S. Jordan                    -
          THRU:                 Anthon
                                     &kw

         FROM:                  Deborah R. lospinWf
                                Bruce H. Cline        d-
          DATE:                 May 25,2000

          SUBJECT:              Response to the Draft Audit Report 00-32 Pre-Audit Survey of the
                                Illinois Commission on Community Service


         We have reviewed the draft report on your pre-audit survey of the Illinois Commission.
         Given the nature of the report, this response serves as our proposed management
         decision. We note that your preliminary assessment recommends a limited scope audit at
         the Commission for Program Years 1995- 1996 through 1998-1999, with a focus on
         subgrantee monitoring. The draft audit report includes a recommendation to the
         Corporation. We are providing the following response to that recommendation. The
.        Inspector General recommended:

                     "Additionally, we (the Inspector General) recommend that the Corporation follow
                     up with the Commission to determine that appropriate corrective actions are put
                     into place to address the conditions reported herein, and.that the Corporation
                     consider these conditions in its oversight and monitoring of the Commission."

           Some of the conditions cited in the "results in brief' section of the report include
           concerns related to the lack of an open and accessible application process and subgrantee
           expense reimbursement requests for matching requirements. Also noted were the
           absence of review documentation of its A-133 audit reports, other audit reports for two
           subgrantees, and site visit schedules and documentation.

           Given our limited program administration resources, we developed a plan to assess State
           Commission administration functions. Over a three-year period, we will be reviewing
           each of the State Commissions. As part of our follow-up with Illinois, we will
           determine whether the Commission has put appropriate corrective actions in place for
           conditions noted in the pre-audit survey that your office has issued.

           In addition to this scheduled review, we will also request that the Illinois Commission
           provide semi-annual reports on their actions to correct conditions cited in the OIG pre-
           audit survey.




NATIONAL SERVICE: GETTING THINGS DONE                                  1201 Yew ~ o r k&\venue,Y w Wastungton, D C '0575
    I~~rrrrlorp~/earn ilnd yme i m m t a   \at~ontd\enlor )mrte ' PA   telephone: 202-606-5000 webste: wuunauonalsemce ors
